1a
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 16-1564
-----------------------------------------------------------------------

Arnold V. Fleck
Plaintiff-Appellant,
v.
Joe Wetch, President of the State Bar Association
of North Dakota, et al.
Defendants-Appellees.
------------------------------------------Pacific Legal Foundation
Amicus on Behalf of Appellant
State Bar of California; The Missouri Bar;
State Bar of Alaska; State Bar of Arizona;
State Bar of Kentucky; State Bar of Michigan;
State Bar of South Dakota; State Bar of Wyoming
Amici on Behalf of Appellees
Texas Legal Ethics Counsel
Amicus Curiae.
-----------------------------------------------------------------------

Appeal from United States District Court for
the District of North Dakota – Bismarck.
-----------------------------------------------------------------------

2a
Submitted: June 13, 2019.
Filed: August 30, 2019
-----------------------------------------------------------------------

Before LOKEN, COLLOTON, and KELLY, Circuit
Judges.
-----------------------------------------------------------------------

LOKEN, Circuit Judge.
To practice law in North Dakota, every resident
lawyer must maintain membership in and pay annual
dues to the State Bar Association of North Dakota
(SBAND). See N.D.C.C. §§ 27-11-22; 27-12-02, -04.
When attorney Arnold Fleck learned that SBAND was
using his compulsory dues to oppose a state ballot
measure he supported, Fleck commenced this action
against SBAND and various state officials in their official capacities, asserting First Amendment claims.
The district court1 granted summary judgment for the
defendants. Fleck appealed; we affirmed. Fleck v.
Wetch, 868 F.3d 562 (8th Cir. 2017). Almost one year
later, the Supreme Court issued its decision in Janus
v. American Federation of State, County, and Municipal
Employees, 138 S. Ct. 2448 (2018). The Court then
granted Fleck’s petition for a writ of certiorari, summarily vacated our decision, and remanded “for further
consideration in light of Janus.” 139 S. Ct. 590 (2018).
We reopened the case and directed the parties to
submit supplemental briefs addressing the issues on
1

The Honorable Daniel L. Hovland, Chief Judge, United
States District Court for the District of North Dakota.

3a
remand. Having considered the supplemental briefs,
the record on appeal, and the Supreme Court’s decision
in Janus, we again affirm the decision of the district
court.
I.

Framing the Issues on Remand.

A. In Abood v. Detroit Board of Education, 431
U.S. 209 (1977), the Supreme Court held that publicsector unions may collect compulsory “agency fees”
from non-members within the bargaining unit to fund
activities germane to collective bargaining, but may
not use those fees to fund non-germane political or ideological activities that a nonmember employee opposes.
In Chicago Teachers Union, Local No. 1 v. Hudson, 475
U.S. 292, 303 (1986), the Court held that the procedure
a union adopts to implement this distinction must “be
carefully tailored to minimize the infringement” of a
nonmember’s First Amendment rights. This includes,
the Court declared, “an adequate explanation of the basis for the fee, a reasonably prompt opportunity to challenge the amount of the fee before an impartial
decisionmaker, and an escrow for the amounts reasonably in dispute while such challenges are pending.” Id.
at 310.
In Keller v. State Bar of California, 496 U.S. 1, 1315 (1990), the Court held that an integrated bar such
as SBAND can, consistent with the First Amendment,
use a member’s compulsory fees to fund activities germane to “regulating the legal profession and improving
the quality of legal services,” but not to fund “activities

4a
having political or ideological coloration which are not
reasonably related to the advancement of such goals”
that the member opposes (non-germane activities).
Lacking an adequate record to address procedural alternatives in detail, the Court stated that “an integrated bar could certainly meet its Abood obligation by
adopting the sort of procedures described in Hudson.”
Id. at 17.
In Janus, the Supreme Court overruled Abood and
held that public-sector unions may not deduct agency
fees or “any other payment to the union” from the
wages of nonmember employees unless the employees
waive their First Amendment rights by “clearly and affirmatively consent[ing] before any money is taken
from them.” 138 S. Ct. at 2486. On remand, Fleck argues that Janus “requires reversal of the district court
decision” because Keller’s theoretical underpinnings
have been undercut by Janus and by Harris v. Quinn,
573 U.S. 616 (2014).
Like Keller, this case involves a mandatory bar
association, not a public-sector union. The majority in
Janus did not discuss Keller nor respond to the dissent’s assertion that Keller was a “case[ ] involving
compelled speech subsidies outside the labor sphere
[that] today’s decision does not question.” 138 S. Ct. at
2498 (Kagan, J., dissenting). In Harris, the Court specifically stated that its holding should not be assumed
to “call into question our decision[ ] in Keller.” 573 U.S.
at 655. Thus, analysis of the potential relevance of the
Janus and Harris decisions on remand requires careful attention to the specific claims asserted by Fleck in

5a
this litigation. We must be mindful of the principle
that, “if a precedent of this Court has direct application
in a case [here, Keller], yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls,
leaving to this Court the prerogative of overruling its
own decisions.” Agostini v. Felton, 521 U.S. 203, 237
(1997) (quotation omitted); see Minn. Citizens Concerned for Life, Inc. v. Swanson, 692 F.3d 864, 879 (8th
Cir. 2012) (en banc).
B. Fleck asserted three separate First Amendment claims in his February 2015 Complaint: First,
that SBAND’s procedures for collecting and spending
mandatory member dues fail to protect members’
rights not to subsidize non-germane expenditures to
which they objected. Second, that those procedures violate his right to “affirmatively consent” before subsidizing non-germane expenditures. Third, that mandatory
membership in SBAND as a condition of practicing law
violates his First Amendment right to freedom of association and to avoid subsidizing speech with which he
disagrees. The first claim was resolved by a November
2015 settlement in which SBAND revised its license
fee statement. See Fleck, 868 F.3d at 653. Fleck does
not argue on remand that Janus permits him to revive
a claim that he settled. Thus, we limit this opinion to
whether Janus requires further consideration of our
decision affirming the grant of summary judgment on
his second and third claims.

6a
II.

The Mandatory Association Claim.

Fleck’s brief on remand placed primary emphasis
on his third claim – that mandatory state bar association membership violates the First Amendment by
compelling him both to pay dues to SBAND and to associate with an organization that engages in political
or ideological activities. He argues that Janus requires
further consideration of this claim because Keller did
not address what the Supreme Court described as “a
much broader freedom of association claim than was at
issue in Lathrop,” 490 U.S. at 17,2 and in Janus the
Court “made clear that courts must apply ‘exacting
scrutiny’ – or possibly even strict scrutiny – to the
question of whether the state’s decision to force an attorney to join the state bar association violates the
First Amendment freedom of association.”
Assuming without deciding that Keller “left the
door open” to pursue this freedom of association claim
in the district court and in this court, Fleck explicitly
chose not to do so. In his motion for summary judgment
to the district court, Fleck conceded that his “claim
challenging the constitutionality of conditioning the
practice of law upon SBAND membership . . . is presently foreclosed by Keller,” and therefore the district
2

The Court in Keller applied its prior decision in Lathrop v.
Donohue, 367 U.S. 820, 843 (1961), where it held that the “compulsory payment of reasonable annual dues” to the integrated
Wisconsin bar did not violate plaintiff ’s First Amendment “rights
of association.” The Court in Lathrop noted that it was presented
“only with a question of compelled financial support of group activities, not with involuntary membership in any other aspect.”
Id. at 828.

7a
court “must deny his motion for summary judgment as
it relates [to] this claim.” Defendants in responding to
Fleck’s motion and the district court’s order granting
defendants’ cross-motion for summary judgment relied
in part on this concession. Likewise, Fleck’s brief on
appeal to this court conceded that his “alternative
claim challenging the constitutionality of mandatory
bar association membership is foreclosed by Keller and
Lathrop,” and therefore “this Court must affirm the
lower court’s judgment on this claim.” He explained
that he was presenting the argument “to preserve it for
the proper forum.” Relying on this concession, we
stated that “we need not further address this issue”
and devoted our opinion to an analysis of Fleck’s optout claim. Fleck, 868 F.3d at 653.
Fleck’s petition to the Supreme Court for a writ of
certiorari misrepresented his position before our court.
The petition stated that he “acknowledged [to the district court] that his challenge to mandatory bar membership was foreclosed by binding precedent.” But it
then falsely asserted that our court “affirmed the dismissal of Fleck’s challenge to mandatory bar membership on the basis of ” Keller and Lathrop and asked the
Supreme Court to “reverse the Eighth Circuit’s decision and overrule Keller and Lathrop.” Then on remand, he argued the constitutionality of mandatory
bar association membership to this court for the first
time, on a district court summary judgment record that
did not address this issue, an issue a majority of the
Court treated as highly fact-intensive in Lathrop. See
367 U.S. at 827-48 and 851-64 (Harlan, J., concurring).

8a
As a general rule, we will not consider arguments
raised for the first time on appeal “as a basis for reversal.” von Kerssenbrock-Praschma v. Saunders, 121 F.3d
373, 375 (8th Cir. 1997) (citation omitted). In addition
to the “inherent injustice in allowing an appellant to
raise an issue for the first time on appeal,” a primary
reason for this rule is that “the record on appeal generally would not contain the findings necessary to an
evaluation of the validity of an appellant’s arguments.”
Id. at 376 (citation omitted). However, we may invoke
our “discretion to consider an issue for the first time on
appeal where the proper resolution [of that issue] is
beyond any doubt . . . or when the argument involves a
purely legal issue in which no additional evidence or
argument would affect the outcome of the case.” Weitz
Co., LLC v. Lloyd’s of London, 574 F.3d 885, 891 (8th
Cir. 2009) (citation omitted). This is not an appropriate
case to invoke that exception.
Fleck conceded his associational claim was governed by binding precedent before the district court
and on appeal. Fleck was represented by public interest lawyers who advised this court they were preserving the issue to argue to the Supreme Court that Keller
and Lathrop should be overruled. Perhaps more importantly, this is not a “purely legal” issue. Based on
Fleck’s concession, defendants did not place in the
summary judgment record the types of detailed information discussed by the Supreme Court in Lathrop
concerning the legislative decision to adopt an integrated bar in North Dakota, the extent to which this
method of licensing and regulating the profession

9a
burdens associational rights of North Dakota lawyers,
and whether, if exacting scrutiny is the governing
standard, North Dakota can serve its “compelling state
interests . . . through means [that are] significantly
less restrictive of associational freedoms.” Boy Scouts
of Am. v. Dale, 530 U.S. 640, 680 (2000) (citation omitted).
It may well be, as Fleck now argues, that Keller
and Lathrop did not consider, and therefore did not
foreclose, his First Amendment associational claim. It
may also be that Janus confirms that this issue would
now be decided under a more rigorous exacting scrutiny standard than the Court may have applied in Keller and Lathrop. We decline to consider these issues
because, whatever level of scrutiny is appropriate, the
claim must still be decided on an evidentiary record.
Based on prior Supreme Court precedent, we conclude
the record is inadequate as the result of Fleck forfeiting the issue in the district court and on appeal. Accordingly, we decline to invoke our discretion to take
up this claim for the first time on remand.
III.

The Opt-Out Procedure Claim.

Once a year, SBAND mails a fee statement which
attorney members fill out and return with their annual
dues payment. SBAND fills in the top half of the statement including the member’s annual license fee (for
example, at the time in question, $380 for a lawyer
with more than five years of practice.) As revised by
the settlement that resolved Fleck’s first claim in this

10a
lawsuit, the bottom half of the statement includes a
column in which the lawyer may elect to pay additional
fees to enroll in one or more practice group sections, to
donate to the North Dakota Bar Foundation or the Pro
Bono Fund, and to take a “Keller deduction.” SBAND
agreed to add the Keller-deduction line in response to
this lawsuit. Next to this line, the statement explains:
OPTIONAL: Keller deduction relating to nonchargeable activities. Members wanting to
take this deduction may deduct $10.07 if paying $380; $8.99 if paying $350; and $7.90 if
paying $325. (See Insert.)
Accompanying the fee statement is a two-page insert
entitled Notice Concerning State Bar Dues Deduction
and Mediation Process explaining how SBAND calculates non-chargeable activities and how members may
object to these determinations. In addition, a new Keller Policy available on SBAND’s member website provides an additional notice. See Fleck, 868 F.3d at 655.
In Knox v. SEIU, 567 U.S. 298, 322 (2012), the Supreme Court held that “when a public-sector union imposes a special assessment or dues increase, the union
must provide a fresh Hudson notice and may not exact
any funds from nonmembers without their affirmative
consent.” In Fleck, we held that the revised SBAND
procedures complied with the annual procedures established in Hudson and cross-referenced in Keller and
that “the opt-out issue debated by the Court in Knox is
simply not implicated by SBAND’s revised license fee
Statement”:

11a
Before submitting an annual license fee payment, each member calculates the amount
owing on the revised Statement. If he selects
the Keller deduction, he writes a check for the
lower amount that excludes a payment for
SBAND’s non-germane expenditures. If he
does not choose the Keller deduction, he “opts
in” to subsidizing non-germane expenses by
the affirmative act of writing a check for the
greater amount.
868 F.3d at 656-57.
On remand, Fleck argues that “SBAND’s collection of money . . . for non-germane activities violates
the First Amendment, just as the union fees in Janus
did, because SBAND does not obtain attorneys’ consent to pay in a manner that is (1) clear, (2) affirmative,
and (3) prior to collecting of funds, as Janus requires.”
We disagree. Janus held that no fee or payment to the
union “may be deducted from a nonmember’s wages . . .
unless the employee affirmatively consents to pay. . . .
before any money is taken.” 138 S. Ct. at 2486. In this
case, SBAND collects dues from members who are licensed attorneys. The audience is sophisticated and
trained to understand and appreciate legal communications. Though membership is mandatory, it still involves a relatively comfortable relationship in which
the member is encouraged to raise issues or seek information from his or her organization.
SBAND’s revised fee statement and procedures
clearly do not force members to pay non-chargeable
dues over their objection. Attorneys are not paid public

12a
sector wages, and SBAND does not automatically deduct annual dues from any source of member funds. It
does not have an online system for collecting dues and
fees and does not even accept credit card payments.
Each member must determine how much he or she
owes in annual dues and then write a check to SBAND
to pay that amount. The member’s right to pay or refuse to pay dues to subsidize non-chargeable expenses
is clearly explained on the fee statement and accompanying instructions, in advance of the member consenting to pay by delivering a check to SBAND. Doing
nothing may violate a member’s obligations to pay
dues, but it does not result in the member paying dues
that he or she has not affirmatively consented to pay.
Nothing in the summary judgment record suggests that SBAND’s revised fee statement is so confusing that it fails to give SBAND members adequate
notice of their constitutional right to take the Keller
deduction. Indeed, Fleck’s stipulation that the revised
fee procedures “resolve fully and completely” his first
claim for relief is strong evidence to the contrary, as
that claim included the allegation that SBAND was
failing to provide “notice to members, including an adequate explanation of the basis for the dues and calculations of all non-chargeable activities.” The best that
can be said for Fleck’s argument is that a busy or careless lawyer might fill out the fee statement and write
a check to SBAND for the full annual dues without noticing the option to take the Keller deduction. The record contains no evidence this has ever happened or is

13a
likely to happen. Fleck asserts a facial, not an asapplied attack on the revised fee statement.
In a “union shop,” every employee must be a union
member. The Supreme Court’s public-sector union
cases – Abood, Knox, Harris, and Janus – have involved “agency shop” relationships, authorized by state
law and/or the collective bargaining agreement, in
which employees may be nonmembers; the issue was
the manner in which and extent to which nonmembers
could be compelled to pay agency fees to subsidize the
union’s non-germane activities. The Supreme Court
has never decided whether a public-sector union shop
would violate employees’ First Amendment associational rights. If the Court upheld a mandatory membership requirement, the dues subsidy issue would be
analogous to the issue in this case under Keller and
Hudson. We have little doubt the Court would impose
a requirement that the union adopt procedures “carefully tailored to minimize the infringement” of a dissenting member’s First Amendment rights. Hudson,
475 U.S. at 303. But because of the practical differences
when an organization deals with members and
nonmembers, we do not assume that the “Hudson notice” requirements would be the same in every detail.
Therefore, as Janus did not overrule Keller and did not
question use of the Hudson procedures when it is appropriate to do so, we conclude after further consideration that Janus does not alter our prior decision
explaining why the district court did not err in granting summary judgment dismissing Fleck’s second
claim.

14a
For the foregoing reasons, the judgment of the district court is affirmed.

15a
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 16-1564
-----------------------------------------------------------------------

Arnold Fleck
Plaintiff-Appellant
v.
Joe Wetch, President of the State Bar Association
of North Dakota, et al.
Defendants-Appellees
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of North Dakota-Bismarck
-----------------------------------------------------------------------

Submitted: April 4, 2017
Filed: August 17, 2017
-----------------------------------------------------------------------

Before LOKEN, COLLOTON, and KELLY, Circuit
Judges.
-----------------------------------------------------------------------

LOKEN, Circuit Judge.
In 2014, North Dakota attorney Arnold Fleck volunteered time and money to support Measure 6, a state
ballot measure to establish a presumption that each
parent is entitled to equal parental rights. North Dakota has an integrated bar, meaning that Fleck and

16a
other licensed attorneys must maintain membership
in and pay annual dues to the State Bar Association of
North Dakota (“SBAND”) as a condition of practicing
law.1 When Fleck learned that SBAND was using his
compulsory fees to oppose Measure 6, he filed a lawsuit
seeking declaratory and injunctive relief, asserting
three First Amendment claims. First, he alleged that
SBAND’s procedures for allowing members to object to
non-germane expenditures failed to comply with the
minimum safeguards required by Keller v. State Bar of
California, 496 U.S. 1 (1990), and Chicago Teachers
Union, Local No. 1 v. Hudson, 475 U.S. 292 (1986). This
claim was resolved by a November 2015 settlement in
which SBAND revised its license fees statement. Second, Fleck alleged that an integrated bar violates his
freedoms not to associate and to avoid subsidizing
speech with which he disagrees. The district court dismissed this claim as barred by Keller. Fleck concedes
we are bound by Keller, so we need not further address
this issue. Third, he alleged that SBAND’s “opt-out”
procedure violates his right to affirmatively consent
before subsidizing non-germane expenditures. The district court2 granted summary judgment dismissing
this claim, the subject of Fleck’s appeal. Reviewing this
ruling de novo, we affirm.
1. The First Amendment Landscape. In International Association of Machinists v. Street, 367 U.S.
1

North Dakota’s integrated bar is codified in N.D.C.C. §§ 2711-22, 27-12-02.
2
The Honorable Daniel L. Hovland, Chief Judge of the
United States District Court for the District of North Dakota.

17a
740, 774 (1961), a divided Supreme Court upheld the
validity of a Railway Labor Act provision authorizing
“union shop” collective bargaining agreements that require railroad employees to pay union dues, fees, and
assessments as a condition of continued employment.
Four Justices upheld the statute by construing it as
“denying the unions the right, over the employee’s objection, to use his money to support political causes
which he opposes,” id. at 768 (opinion of Brennan, J.,
for the Court); a fifth Justice agreed to this remedy “dubitante,” id. at 779 (Douglas, J., concurring). That same
day, a divided Court held that a State may constitutionally condition practicing law on membership in an
integrated bar association. There was no majority
opinion, and Justice Brennan’s four-Justice plurality
did not address whether an integrated bar association
may use a member’s compulsory fees to support political activities that he or she opposes. See Lathrop v.
Donohue, 367 U.S. 820, 843-844 (1961).
In Abood v. Detroit Board of Education, 431 U.S.
209 (1977), applying Street and First Amendment principles, the Court held that public sector unions may
collect compulsory “agency fees” from non-members
within the bargaining unit to fund activities germane
to collective bargaining, but may not use those fees to
fund non-germane political or ideological activities
that a non-member employee opposes. In Hudson, the
Court held that the procedure a union adopts to implement this distinction must “be carefully tailored to
minimize the infringement” of a non-member’s First
Amendment rights. 475 U.S. at 303. The procedure at

18a
issue in Hudson did not meet this standard “because it
failed to minimize the risk that non-union employees’
contributions might be used for impermissible purposes . . . failed to provide adequate justification for
the advance reduction of dues, and . . . failed to offer a
reasonably prompt decision by an impartial decisionmaker.” Id. at 309. Constitutional requirements include, the Court declared, “an adequate explanation of
the basis for the fee, a reasonably prompt opportunity
to challenge the amount of the fee before an impartial
decisionmaker, and an escrow for the amounts reasonably in dispute while such challenges are pending.” Id.
at 310.
The Supreme Court returned to the issue of integrated bar compulsory fees in Keller, concluding that
an integrated bar can, consistent with the First
Amendment, use a member’s compulsory fees to fund
activities germane to “regulating the legal profession
and improving the quality of legal services,” but not to
fund non-germane activities the member opposes. 496
U.S. at 13-14. Lacking an adequate record to address
procedural alternatives in detail, the Court stated that
“an integrated bar could certainly meet its Abood obligation by adopting the sort of procedures described in
Hudson.” Id. at 17.
2. SBAND’s Post-Settlement Procedures.
SBAND concedes that its expenditures in support of
Measure 6 were “non-germane” under Keller, so the issue in this case is whether SBAND has implemented
constitutionally adequate procedures to protect the
First Amendment rights of North Dakota attorneys

19a
who oppose a non-germane expenditure. When Fleck
filed this action, SBAND’s Legislative Policy provided
that a member who dissented from a position on any
legislative or ballot measure matter could receive a refund of that portion of his or her dues which would otherwise have been used in that activity. The Policy did
not advise if members could opt out of paying for nongermane expenses in advance, inform members of the
breakdown between germane and non-germane expenses, or allow members to challenge SBAND’s calculation of germane expenses before an impartial
decisionmaker. In response to this lawsuit, SBAND
adopted revised policies that Fleck agreed comply with
the minimum safeguards required by Keller and Hudson, and the district court dismissed Fleck’s first claim
without prejudice. Accordingly, it is the revised policies
that are relevant to Fleck’s appeal of the “opt-out” issue.
Each year, SBAND sends a Statement of License
Fees Due. Unless exempt, a member must pay annual
dues of either $380, $350, or $325, depending on years
of practice. The Statement lists this figure as the “annual license fee.” The member certifies that he or she
has complied with rules governing trust accounts and
malpractice insurance, and checks boxes to enroll in
specialized SBAND sections for additional fees, contribute to the bar foundation, and donate to a pro bono
fund. The following new section appears near the end
of the revised Statement:
OPTIONAL: Keller deduction relating to
nonchargeable activities. Members wanting to

20a
take this deduction may deduct $10.07 if paying $380; $8.99 if paying $350; and $7.90 if
paying $325. (See Insert.)
SBAND computes this deduction as a percentage of annual license fees based on the percentage of the prior
year’s fees that SBAND spent on non-germane activities. Next to this explanation is a blank allowing the
member to write in an amount to be deducted from the
license fees due. At the end of the Statement, the member adds optional fees selected to the annual license fee
and subtracts the “Keller deduction” if chosen. The resulting figure is the amount due. Members return the
completed Statement with a check payable to the State
Board of Bar Examiners (“Board”), which collects license fees and issues annual licenses. See N.D.C.C.
§ 27-11-22.3
An Insert with the new Statement is a Notice Concerning State Bar Dues Deduction and Mediation Process. This two-page document describes the holding in
Keller, explains how SBAND calculates nonchargeable
activities each year, and informs members how to object to SBAND determinations. In addition, a new Keller Policy available on SBAND’s member website
provides an additional notice:
SBAND shall provide periodic notice to its
membership of any expenditures that deviate
from its pre-collection notice. SBAND shall
3

SBAND receives $75 of each annual license fee for operation of the lawyer discipline system and 80% of the remaining fee
totals “for the purpose of administering and operating the association.” § 27-12-04.

21a
also provide notice of any position it adopts regarding legislative proposals and initiated
and referred measures within two weeks of
SBAND’s vote to adopt such positions. After
being emailed to members of SBAND, such
notices will be readily accessible at
www.sband.org.
3. The Opt-Out Issue. Relying on the Supreme
Court’s recent decision in Knox v. Service Employees
International Union, Local 1000, 567 U.S. 298 (2012),
Fleck argues that the revised license fees Statement
violates the First Amendment because it requires him
to opt out of subsidizing non-germane expenses, and
SBAND may only finance non-germane activities with
compulsory fees paid by affirmatively consenting
members. The district court concluded that Knox did
not overrule prior cases holding that the First Amendment does not require an opt-in procedure.
Railway Labor Act agency shop collective bargaining agreements at issue in Street and in Ellis v. Brotherhood of Railway Clerks, 466 U.S. 435 (1984), provided
a “checkoff ” procedure whereby the railroad employer
sent union members’ mandatory dues directly to the
union and deducted the dues from the employees’
paychecks. If members successfully objected to paying
dues for union expenditures for political causes, the
union would place them on “agency fee payer status.”
See generally Conrad v. Int’l Ass’n of Machinists, 338
F.3d 908, 910-11 (8th Cir. 2003). Likewise, in Hudson,
the Chicago School Board agreed to deduct “proportionate share payments” from the paychecks of

22a
non-member teachers and send them directly to the
Teachers Union; after the deduction, if the Union sustained a non-member’s objection, future deductions of
all non-members were reduced and the objector received a rebate. 475 U.S. at 295.
In Knox, a public-sector union provided an annual
Hudson notice calculating germane expenses and permitting non-members to opt out of non-germane expenses by objecting within thirty days. 567 U.S. at 303.
Thirty days later, the union imposed a one-time dues
increase to fund its political opposition to controversial
ballot measures and to re-electing the incumbent governor. Id. at 304-05. The union sent no new Hudson
notice, applied a portion of the dues increase to nonmembers who already had opted out, and did not allow
non-members who did not initially opt out to opt out of
paying the special assessment. Id. at 305-06. The
Court struck down this procedure, concluding that,
“[t]o respect the limits of the First Amendment, the union should have sent out a new notice allowing nonmembers to opt in to the special fee rather than
requiring them to opt out.” Id. at 317.
In the majority opinion, five Justices more broadly
criticized the opt-out procedure approved in its prior
decisions:
Once it is recognized, as our cases have, that
a nonmember cannot be forced to fund a union’s political or ideological activities, what is
the justification for putting the burden on the
nonmember to opt out of making such a payment? Shouldn’t the default rule comport

23a
with the probable preferences of most nonmembers? . . . An opt-out system creates a
risk that the fees paid by nonmembers will be
used to further political and ideological ends
with which they do not agree.
Id. at 312. The Court explained that its tolerance of annual opt-out procedures came about “more as a historical accident than through the careful application of
First Amendment principles.” Id. The majority stated
that these “prior decisions approach, if they do not
cross, the limit of what the First Amendment can tolerate.” Id. at 314. It invalidated the special assessment
at issue because, even if the opt-out burden “can be justified during the collection of regular dues on an annual basis, there is no way to justify the additional
burden of imposing yet another opt-out requirement to
collect special fees whenever the union desires.” Id. at
317. Two Justices agreed that the special assessment
in Knox failed to follow procedures mandated by Hudson but disagreed with the majority’s broad condemnation of opt-out procedures upheld in Hudson and
Abood. Id. at 323 (Sotomayor, J., concurring in the
judgment).
We agree with the district court that the decision
in Knox left in place annual procedures established in
Hudson, and cross-referenced in Keller, which included
an opt-out feature. But this does not wholly answer the
issue on this appeal, because Hudson requires procedures “carefully tailored to minimize the infringement”
of a non-member’s First Amendment rights, 475 U.S. at
303, which is a fact-intensive standard, as the Court

24a
acknowledged in Keller, 496 U.S. at 17. In our view, focusing on the revised SBAND procedures, there is an
obvious answer to Fleck’s challenge, namely, that the
opt-out issue debated by the Court in Knox is simply
not implicated by SBAND’s revised license fee Statement.
In a Railway Labor Act or public sector union case
involving a collectively bargained dues checkoff procedure, the employer transfers money the employee has
earned directly to the union, unless the protesting employee affirmatively “opts out.” The union then gets to
use this compulsory payment on non-germane expenditures the employee opposes, at least until the employee successfully objects and obtains a rebate. Here,
on the other hand, North Dakota attorneys pay the annual license fee themselves. Fleck admits the revised
license fee Statement adequately discloses a member’s
option not to fund non-germane expenditures, the issue resolved by the settlement and dismissal of his
first claim. Before submitting an annual license fee
payment, each member calculates the amount owing
on the revised Statement. If he selects the Keller deduction, he writes a check for the lower amount that
excludes a payment for SBAND’s non-germane expenditures. If he does not choose the Keller deduction,
he “opts in” to subsidizing non-germane expenses by
the affirmative act of writing a check for the greater
amount. Thus, the opt-out issue debated but not decided in Knox is irrelevant to whether SBAND’s

25a
revised license fee procedures comply with the mandates of Keller and Hudson.
The judgment of the district court is affirmed.

26a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
SOUTHWESTERN DIVISION
Arnold Fleck,

)
)
Plaintiff,
)
Jack McDonald, President )
of the State Bar Association )
of North Dakota; Aubrey
)
Fiebelkorn-Zuger, Secretary )
and Treasurer of the State )
Bar Association of North
)
Dakota; Tony Weiler,
)
Executive Director of the
)
State Bar Association of
)
North Dakota; and Penny
)
Miller, Secretary Treasurer )
of the State Board of Law
)
Examiners, in their official )
capacities
)
)
Defendants.

ORDER OF DISMISSAL OF CLAIM
ONE; ORDER
FINDING AS MOOT
MOTION FOR
PRELIMINARY
INJUNCTION
(Filed Nov. 24, 2015)
Case No: 1:15-cv-136

Before the Court is a “Joint Stipulation of Partial
Case Resolution,” filed on November 20, 2015. See
Docket No. 42. The Court ADOPTS the stipulation,
as it relates to the Plaintiff ’s substantive claims, in its
entirety (Docket No. 42) and ORDERS that the Plaintiff ’s first claim regarding a lack of minimum safeguards required under Keller v. State Bar of California,
496 U.S. 1 (1990), be dismissed pursuant to Rule
41(a)(1)(a)(ii) of the Federal Rules of Civil Procedure,
without prejudice and without costs or disbursements

27a
to either party. Accordingly, the Plaintiff ’s “Motion for
Preliminary Injunction” (Docket No. 3) is DENIED as
MOOT.
IT IS SO ORDERED.
Dated this 24th day of November, 2015.
/s/ Daniel L. Hovland
Daniel L. Hovland, District Judge
United States District Court

28a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Arnold Fleck,

)
)
Plaintiff,
)
vs.
)
Joe Wetch, President of )
the State Bar Association )
of North Dakota; Aubrey )
Fiebelkorn-Zuger, Secretary )
and Treasurer of the State )
)
Bar Association of North
)
Dakota; Tony Weiler,
Executive Director of the )
)
State Bar Association of
North Dakota and Penny )
Miller, Secretary-Treasurer )
of the State Board of
)
Law Examiners, in their
)
official capacities,
)
)
Defendants.

Case No. 1:15-CV-13
ORDER GRANTING
DEFENDANTS’
CROSS-MOTION FOR
SUMMARY JUDGMENT;
ORDER DENYING
PLAINTIFFS MOTION
FOR SUMMARY
JUDGMENT
(Filed Jan. 28, 2016)

The Plaintiff, Arnold Fleck, is an attorney and
member of the integrated State Bar Association of
North Dakota (“SBAND”). The Defendants are Joe
Wetch, President of the State Bar Association of North
Dakota; Aubrey Fiebelkorn-Zuger, Secretary and Treasurer of the State Bar Association of North Dakota; and
Tony Weiler, Executive Director of the State Bar Association of North Dakota (“SBAND Defendants”). All
parties agree there are no genuine issues of material
fact in dispute. The parties request the Court, through

29a
their pending cross-motions for summary judgment,
rule upon the following issues as a matter of law:
(1) Whether the Plaintiff may constitutionally be
required to be a member of, and pay dues to,
SBAND in order to practice law in North Dakota; and
(2) Whether SBAND’s procedures, which permit
the Plaintiff to “opt-out” of funding activities
which are not germane to the compelling interests of regulating attorneys and improving
the quality of legal services available to the
citizens of North Dakota, provide the Plaintiff
with minimum constitutionally required safeguards.
I.

BACKGROUND

SBAND is a professional association of members
of the legal profession licensed to practice law in the
State of North Dakota and attorneys who, by virtue of
holding judicial or other office, are exempt from such
licensing. N.D.C.C. § 27-12-02. SBAND was created by
statute, and is governed by a Board of Governors
elected from its membership. SBAND is an integrated
bar association meaning membership and payment of
dues are mandatory in order to practice law in the
State of North Dakota. The objectives of SBAND are to
improve professional competence, promote the administration of justice, uphold the honor of the profession
of law, and encourage cordial relations among members of the State Bar. See Docket No. 26-1.

30a
SBAND sets annual bar dues for its members. By
statute, $75 of each annual license is paid to SBAND
to fund the lawyer discipline system, with 80% of the
remainder of each annual license being paid to SBAND
“for the purpose of administering and operating the association.” N.D.C.C. § 27-12-04. In part, SBAND investigates complaints against attorneys and facilitates
attorney discipline, promotes law-related education
and ethics, facilitates and administers a volunteer
lawyers program and lawyer assistance program, administers a client protection fund, provides advisory
services to government officials on various legal subjects, monitors and keeps members of the bar updated
on the status of various legislative measures, and provides information to the legislature on matters affecting regulation of the legal profession and matters
affecting the quality of legal services available to the
people of the State of North Dakota. See Docket No. 50,
p. 2.
SBAND also engages in certain “non-chargeable”
activities, that is, all activities other than those related
to its compelling government interest in improving the
practice of law through the regulation of attorneys.
Keller v. State Bar of California, 496 U.S. 1, 14 (1990);
Chicago Teachers Union, Local No. 1 v. Hudson, 475
U.S. 292, 310 (1986); See Docket No. 42-2. Some portion
of the dues are spent on political or ideological activities, and SBAND is constitutionally compelled to reimburse that spending to bar members who so request.
SBAND conducts a variety of activities that include

31a
lobbying on bills pending before the Legislative Assembly of North Dakota. See Docket No. 25, pp. 3-4.
In this case, SBAND expended member dues on
certain challenged “non-chargeable” activities, namely
opposing North Dakota Initiated Statutory Measure
No. 6 (“Measure 6”). See Docket No. 42-2, p. 3. Fleck
strongly supported Measure 6, which appeared on the
North Dakota ballot on November 4, 2014. Measure 6
proposed to “amend section 14-09-06.2 of the North Dakota Century Code to create a presumption that each
parent is a fit parent and entitled to be awarded equal
parental rights and responsibilities by a court unless
there is clear and convincing evidence to the contrary.”
Fleck contributed $1,000 to a committee in support of
Measure 6, and he also he [sic] participated in the campaign – appearing on television and radio to debate the
merits of the measure. See Docket No. 4-1, p. 2.
The record reveals that a few weeks before the
election Fleck discovered – through a third party – that
SBAND staunchly opposed Measure 6 and threw its
weight behind the opposition, expending member dues
in the process. See Docket No. 4-1, p. 3. SBAND contributed $50,000 in compelled member dues to “Keeping Kids First,” a committee that opposed Measure 6.
See Docket Nos. 4-2 and 42-2. Ultimately, the “Keeping
Kids First” committee returned some of these funds,
and SBAND’s final contribution totaled $46,525.85.
See Docket No. 20, p. 8. In addition, SBAND provided
“Keeping Kids First” with support by allowing the ballot committee to utilize SBAND’s email system and establish an email address with SBAND’s domain name:

32a
keepingkidsfirst@sband.org. See Docket No. 1, p. 9;
Docket No. 20, p. 9.
On February 3, 2015, Arnold Fleck filed a complaint in federal court for declaratory and injunctive
relief, alleging three claims for relief against the Defendants: (1) lack of minimum safeguards required under Keller v. State Bar of California, 496 U.S. 1 (1990);
(2) violation of the right to affirmatively consent to
“non-chargeable” expenditures; and (3) the unconstitutionality of a mandatory bar association. See Docket
No. 1. On February 3, 2015, Fleck filed a “Motion for
Preliminary Injunction” with respect to his first and
second claims for relief. See Docket No. 3. On May 14,
2015, the Court ordered the parties into an early settlement conference under the supervision of Magistrate Judge Charles Miller. On May 27, 2015, the
parties became involved in settlement discussions as
ordered and agreed to negotiate a resolution of the
case. All deadlines in the case were then stayed.
Pursuant to a “Joint Stipulation of Partial Case
Resolution and Briefing Schedule Regarding Dispositive Motions,” dated and filed November 20, 2015
(Docket No. 42), the parties agreed SBAND would
adopt revised policies (Docket Nos. 42-1 through 42-3);
that such adoption would fully and completely resolve
the Plaintiff ’s first claim for relief described above;
that the Plaintiff would withdraw his “Motion for Preliminary Injunction,” and the parties agreed to settle
all of the Plaintiff ’s claims for the recovery of past, present, and future attorney fees and costs in this case. A
briefing schedule was agreed upon relative to the

33a
pending cross-motions for summary judgment as to the
Plaintiff ’s second and third claims. Thereafter, this
Court adopted the Joint Stipulation and dismissed the
Plaintiff ’s first claim for relief pursuant to the “Order
of Dismissal of Claim One; Order Finding as Moot Motion for Preliminary Injunction” filed on November 24,
2015, (Docket No. 46).
SBAND’s new procedures1 now provide members
with the ability to “opt-out” of payment of their prorata share of “non-chargeable” expenditures estimated
for the upcoming fiscal year, and based on the prior
years audited financial statements. Fleck concedes
SBAND’s newly adopted procedures are in compliance
with the minimum safeguards established under Keller and Hudson, and that such new procedures resolve
the first claim for relief in this case. With respect to the
remaining two counts, Fleck asserts Supreme Court
precedent is no longer viable and should be overturned
as such precedence is allegedly irreconcilable with the
United States Supreme Court’s subsequent decision in
Knox v. Serv. Emps. Int’l Union, 132 S. Ct. 2277 (2012).
Specifically, Fleck asserts the “opt-out” procedure is
not adequate to protect his First Amendment rights,
and instead asserts that bar members must be allowed
to “opt-in” in order to fund “non-chargeable” expenditures.

1

SBAND Board of Governors adopted the revised policies on
September 18, 2015. (Second Weiler Aff. At ¶ 5 and Exhibit Y.)
The new “Keller Policy” is posted on the SBAND website.

34a
II.

STANDARD OF REVIEW

It is well-established in the Eighth Circuit that
summary judgment is appropriate when the evidence,
viewed in a light most favorable to the non-moving
party, indicates no genuine issues of material fact exist
and, therefore, the moving party is entitled to judgment as a matter of law. Davison v. City of Minneapolis,
Minn., 490 F.3d 648, 654 (8th Cir. 2007); See Fed. R.
Civ. P. 56(c). Summary judgment is not appropriate if
there are factual disputes that may affect the outcome
of the case under the applicable substantive law. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
An issue of material fact is genuine if the evidence
would allow a reasonable jury to return a verdict for
the non-moving party. Id.
The Court must inquire whether the evidence presents sufficient disagreement to require the submission of the case to a jury or if it is so one-sided that one
party must prevail as a matter of law. Diesel Mach.,
Inc. v. B.R. Lee Indus., Inc., 418 F.3d 820, 832 (8th Cir.
2005). The moving party first has the burden of demonstrating an absence of genuine issues of material fact.
Simpson v. Des Moines Water Works, 425 F.3d 538, 541
(8th Cir. 2005). The non-moving party “may not rest
upon the mere allegations or denials of the adverse
party’s pleading, but . . . must set forth specific facts
showing that there is a genuine issue for trial.” Fed. R.
Civ. P. 56(e).
In the present case, the record reveals that all parties agree there are no genuine issues of material fact

35a
in dispute, and the remaining legal claims are issues
for this Court to resolve.
III. LEGAL DISCUSSION
A. CONSTITUTIONALITY OF NORTH DAKOTA’S INTEGRATED BAR AND COMPULSORY DUES
The Plaintiff, Arnold Fleck, concedes his “claim
challenging the constitutionality of conditioning the
practice of law upon SBAND membership and payment of SBAND dues is presently foreclosed by” the
United States Supreme Court decisions in Keller v.
State Bar of California, 496 U.S. 1, 14 (1990) and Lathrop v. Donohue, 367 U.S. 820 (1961). The Supreme
Court in Lathrop upheld Wisconsin’s integrated state
bar on the basis that (1) the only “compelled association” was the payment of dues, which was insufficient
on its own to comprise a constitutional violation, and
(2) the purpose of integrating the bar was to “promote
high standards of practice and the economical and
speedy enforcement of legal rights.” 367 U.S. at 827-28.
The Supreme Court in Keller reaffirmed this point decades later. Keller clearly clarified that “lawyers admitted to practice in the State may be required to join and
pay dues to the State Bar.” 496 U.S. at 4. There is no
question under Keller and Lathrop that integrated bar
associations are justified by a state’s interest “in regulating the legal profession and improving the quality
of legal services.” 496 U.S. at 13. Thus, the State of
North Dakota may constitutionally condition the right

36a
of its attorneys to practice law upon the payment of
membership dues to an integrated bar.
Although Fleck has conceded his third claim for
relief is foreclosed by Supreme Court precedent, he asserts this long-standing precedent should be overturned by the Supreme Court on a future appeal on the
basis that Keller and Lathrop are irreconcilable with
basic First Amendment principles and subsequent decisions and, in particular, the United States Supreme
Court decision in Knox v. Serv. Emps. Int’l Union, 132
S. Ct. 2277 (2012). As Fleck has conceded his legal arguments are contrary to United States Supreme Court
precedent directly on point, the Court will grant summary judgment in favor of the Defendants on the third
claim for relief.
B. SBAND’S OPT-OUT PROCEDURE IS
CONSTITUTIONAL
For the same reason Fleck’s challenge to the constitutionality of SBAND’s integrated bar is foreclosed
by United States Supreme Court precedent, the challenge to SBAND’s “opt-out” procedure is also foreclosed
by similar precedent. The United States Supreme
Court specifically stated in the context of an integrated
bar in Keller that the “opt-out” procedures established
under Chicago Teachers Union, Local No. 1, v. Hudson,
475 U.S. 272 (1986) satisfied constitutional requirements.
See Keller, 496 U.S. at 16 (“We believe an integrated

37a
bar could certainly meet its Abood obligation2 by
adopting the sort of procedures described in Hudson.”
(Footnote added)).
As a result of this lawsuit, SBAND has now established a new procedure called the “Keller Policy” by
which members choose whether to allow their bar dues
to be used for “non-chargeable” activities, i.e., political
or ideological activities. See Docket No. 42-3. The new
procedures employed by SBAND are based on the policies and procedures for labor unions that the Supreme
Court approved in Hudson. In Hudson, the Supreme
Court required a labor union’s agency fees to include
“an adequate explanation of the basis for the fee, a reasonably prompt opportunity to challenge the amount
of the fee before an impartial decision maker, and an
escrow for the amounts reasonably in dispute while
such challenges are pending. Id. at 310.
SBAND provides its members with annual notice
of the fee, a description of how it is calculated, and the
ability to receive a deduction for the portion of the dues

2

In Abood v. Detroit Bd. of Education, 431 U.S. 209 (1977)
the United States Supreme Court concluded although the Constitution of the United States of America did not prohibit a union
from spending funds for the expression of political views, or toward the advancement of other ideological causes not germane to
its duties as collective bargaining representatives, the Constitution did require that such expenditures be financed from charges,
dues, or assessments paid by employees who did not object to advancing those ideas and who were not coerced into doing so
against their will by the threat of loss of governmental employment. Id. at 234-36.

38a
used for “non-chargeable” purposes. A neutral mediator (Karen Klein or her designee) hears timely challenges to that amount. The new procedures are as
follows:
SBAND KELLER POLICY
1.

The State Bar Association of North Dakota
(“SBAND”) may engage in and fund any activity that is reasonably intended for the purposes of the association which are set forth in
Article 2 of the Constitution of SBAND, permitted by the by-laws of SBAND, or as otherwise statutorily authorized. SBAND may not
use the compulsory dues of any member who
objects pursuant to paragraph 3 of this policy
for activities that are not germane under Keller v. State Bar of California, 496 U.S. 1 (1990).
Expenditures that are not germane under
Keller v. State Bar of California, 496 U.S. 1
(1990) may be funded only with user fees or
other sources of revenue, or those portions of
member compulsory dues for which no objection has been made pursuant to paragraph 3
unless any such objection has been determined against the objecting member by a neutral mediator.

2.

Prior to the beginning of each fiscal year,
SBAND shall publish written notice of the
activities that can be supported by compulsory dues (“Chargeable”) and the activities
that cannot be supported by compulsory dues
(“nonchargeable”). The notice shall estimate

39a
the cost of each activity, including all appropriate indirect expense, and the amount of
dues to be devoted to each activity. The notice
shall set forth each member’s pro rata portion,
according to class of membership, of the dues
to be devoted to activities that cannot be supported by compulsory dues without such
member’s consent. The notice shall be sent to
every member of SBAND together with the
annual dues statement. A member of SBAND
may deduct the pro rata portion of dues budgeted for activities that cannot be supported by
compulsory dues without such member’s consent.
3.

SBAND shall provide periodic notice to its
membership of any expenditures that deviate
from tis [sic] pre-collection notice. SBAND shall
also provide notice of any position it adopts
regarding legislative proposals and initiated
and referred measures within two weeks of
SBAND’s vote to adopt such positions. After
being emailed to members of SBAND, such notices will be readily accessible at www.sband.org.

4.

A member of SBAND who contends SBAND
incorrectly set the amount of dues which can
be withheld must deliver to SBAND a written
objection. Any such demand shall be delivered
to the Executive Director of SBAND within 30
days of receipt of the member’s dues statement or any additional notice, and if not so
submitted any such claim shall be considered
time barred. SBAND’s Board of Governors
will address each objection, and if the member
is not satisfied with the Board’s decision, the

40a
member may demand binding dispute resolution which shall be conducted by Mediator
Karen Klein, or someone she so designates.
The objecting SBAND member may object to
mediator Klein or her designee in which case
the parties shall mutually agree upon a mediator.
5.

If one or more timely demands for binding dispute resolution are delivered, the stat [sic] bar
shall promptly submit the matter to binding
dispute resolution before Mediator Karen
Klein or someone she so designates. The objecting SBAND member may object to mediator Klein or her designee in which case the
parties shall mutually agree upon a mediator.
All such demands for binding dispute resolution shall be consolidated for binding dispute
resolution. No later than 7 calendar days before binding dispute resolution, any member,
having given written objection pursuant to
paragraph 4 and requesting binding dispute
resolution, may file with the mediator a statement specifying with reasonable particularity
each activity he or she believes should not be
supported by compulsory dues under this paragraph and the reasons for the objection.
SBAND will have the burden to show that the
disputed activities are germane under Keller
v. State Bar of California, 496 U.S. 1 (1990).
The costs of the binding dispute resolution
shall be paid by SBAND.

6.

In the event the decision of the mediator results in an increased pro rata deduction of
dues for members who have delivered timely

41a
demands for binding mediation for a fiscal
year, the state bar shall provide such increased pro rata deduction to all members
who did not consent to funding nonchargeable
activities, as well as members first admitted
to the state bar during that fiscal year and after the date of the mediator’s decision.
See Docket No. 42-3
The United States Supreme Court has validated
this prior-year calculation process in the union dues
context. See Hudson, 475 U.S. at 307, n. 18. The Court
concludes that the new “Keller Policy” provides procedural safeguards which comport with long-established
precedent. Further, the Supreme Court specifically
stated in the context of an integrated bar in Keller that
the “opt-out” procedures established under Hudson
satisfied constitutional requirements. See Keller, 496
U.S. at 16.
The Plaintiff ’s reliance on Knox v. Serv. Emps. Int’l
Union, 132 S. Ct. 2277 (2012) for the proposition that
the “opt-out” procedures are unconstitutional, and that
Keller and Hudson should be overturned, is misplaced.
The Supreme Court in Knox was careful to distinguish
the “opt-out” procedures accepted in Hudson, in the
context of annual dues assessments, from procedures
which are required in the context of mid-year special
assessments and dues increases. The special assessment at issue in Knox was significantly different in
nature from typical union annual dues assessments.
Specifically, the temporary mid-year special assessment
in Knox was to be utilized 100% to fund a “Political

42a
Fight-Back Fund,” to achieve the union’s political objectives in upcoming elections. In this context, the Supreme Court determined the union should have sent
out a new Hudson notice regarding the special assessment (in addition to the annual dues Hudson notice),
noting it made no sense to apply the same chargeable
versus non-chargeable expense allocations utilized for
the annual dues assessment to the special assessment.
In essence, Fleck is requesting that long-standing
precedent upholding the validity of “opt-out” procedures as established by the Supreme Court in Hudson
(1986), and directly applied to integrated bars in Keller
(1990), be overruled. This Court is unwilling to do that.
In Knox, the Supreme Court did not determine the
“opt-out” procedure to be unconstitutional in relation
to annual dues assessments. State bar associations
across the country have modified their licensing procedures since Keller was decided in 1990, to come into
compliance with the Hudson/Keller requirements, including the “opt-out” procedure at issue in this lawsuit.
Similarly, public unions across the nation have modified their procedures related to compulsory dues to
come into compliance with the “opt-out” procedures of
Hudson. See Abood v. Detroit Board of Education, 431
U.S. 209, 222 (1977) (upholding the constitutional validity of compelling employees to support collective
bargaining representative and rejecting the notion
the only funds from non-union members that a union
constitutionally could use for political or ideological
causes were those funds that the non-union member
affirmatively consented to pay.); Mitchell v. Los Angeles

43a
Unified School District, 963 F.2d 258, 260-63 (9th Cir.
1992) (discussing a long line of Supreme Court cases
supporting the utilization of “opt-out” procedures, citing Abood in rejecting a claim that an “opt-in” procedure is constitutionally required, and holding that
“opt-out” procedures followed by the union to give dissenting non-union members an opportunity to object to
full agency fee assured protection of non-members’
First Amendment rights). This Court is unaware of any
federal or state court which has interpreted Knox to
hold that the “opt-out” procedures established in Hudson are unconstitutional, or that the “opt-in” procedures advocated by the Plaintiff are constitutionally
required. Further, neither party has cited any case that
has reached such a holding to date.
In summary, the Court has not been presented
with any facts or case law which supports an inference
that SBAND’s new procedural safeguards infringe on
the Plaintiff ’s constitutional rights to free association
and speech. The Court holds, as a matter law, that
SBAND’s “opt-out” procedure is reasonable and constitutionally permissible under current United States
Supreme Court precedent. The Court grants summary
judgment in favor of the Defendants on the second
claim for relief.
IV. CONCLUSION
The Court has carefully reviewed the entire record, the parties’ briefs, and relevant case law. For the
reasons set forth above, the Plaintiff ’s motion for

44a
summary judgment (Docket No. 43) is DENIED and
the Defendant’s cross-motion for summary judgment
(Docket No. 48) is GRANTED. Accordingly, all of the
Plaintiff ’s remaining claims are dismissed with prejudice and judgment is entered in favor of the Defendants.
IT IS SO ORDERED
Dated this 28th day of January, 2016.
/s/ Daniel L. Hovland
Daniel L. Hovland,
District Judge
United States District Court

45a

United States District Court
District of North Dakota
Arnold Fleck,
Plaintiff,

JUDGMENT IN
A CIVIL CASE
(Filed Jan. 28, 2016)

vs.

Case No. 1:15-cv-13
Joe Wetch, President of the
State Bar Association of North
Dakota; Aubrey FiebelkornZuger, Secretary and Treasurer
of the State Bar Association of
North Dakota; Tony Weiler,
Executive Director of the
State Bar Association of North
Dakota and Penny Miller,
Secretary-Treasurer of the
State Board of Law Examiners,
in their official capacities,
Defendants.


Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.



Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.



Decision on Motion. This action came before the
Court on motion. The issues have been considered
and a decision rendered.

46a


Stipulation. This action came before the court on
motion of the parties. The issues have been resolved.



Dismissal. This action was voluntarily dismissed
by Plaintiff pursuant to Fed. R. Civ. P. 41(a)(1)(ii).

IT IS ORDERED AND ADJUDGED:
The Plaintiff ’s motion for summary judgment (Docket
No. 43) is DENIED and the Defendant’s cross-motion
for summary judgment (Docket No. 48) is GRANTED.
Accordingly, all of the Plaintiff ’s remaining claims are
dismissed with prejudice and judgment is entered in
favor of the Defendants.
Date: January 28, 2016
ROBERT J. ANSLEY, CLERK OF COURT
by: /s/ Jeanene Thompson, Deputy Clerk

47a
RELEVANT NORTH DAKOTA STATUTES
N.D. Cent. Code § 27-11-01
Practicing law and serving on courts of record
without certificate of admission and without
payment of annual license fee prohibited – Penalty. Except as otherwise provided by state law or supreme court rule, a person may not practice law, act as
an attorney or counselor at law in this state, or commence, conduct, or defend in any court of record of this
state, any action or proceeding in which the person is
not a party concerned, nor may a person be qualified
to serve on a court of record unless that person has:
1. Secured from the supreme court a certificate of
admission to the bar of this state; and 2. Secured an
annual license therefor from the state board of law examiners. Any person who violates this section is guilty
of a class A misdemeanor.

N.D. Cent. Code § 27-11-22
Annual licenses to practice law and to serve on
certain courts – Requirement – Issuance – Fees.
A person who has an unrevoked certificate of admission to the bar of this state and who desires to engage
in the practice of law, or who is to serve as a judge of a
court of record, must secure an annual license from the
state board of law examiners on or before January first
of each year. The secretary-treasurer of the board
shall issue the license upon compliance with the rules
adopted or approved by the supreme court to assure

48a
the professional competence of attorneys, and upon
payment of a fee established by the state bar association at its annual meeting, by a majority vote of its
members in attendance at the meeting, not to exceed
four hundred dollars. The license is valid for the calendar year for which it is issued. Issuance of an annual
license to practice law may not be conditioned upon
payment of any surcharge, assessment, or fee in excess
of the maximum fee established by this section. This
section does not prohibit imposition of a reasonable fee
for filing and processing reports of compliance with
continuing education requirements.

N.D. Cent. Code § 27-11-23
Fees from annual licenses to be deposited in
state bar fund. The secretary-treasurer of the state
board of law examiners shall deposit and disburse all
fees and moneys collected by the board in accordance
with section 54-44-12.

N.D. Cent. Code § 27-11-24
Expenditure of state bar fund. Moneys in the state
bar fund must be used to pay:
1. The bar association of the state of North Dakota the sum required to be paid under section 27-1204;

49a
2. The compensation and expenses allowed by
law to each member and to the secretary-treasurer of
the state board of law examiners;
3. The expenses incurred by the state board of
law examiners in conducting examinations of applicants for admission to the bar of this state and expenses of the board or a grievance committee of the
supreme court in investigating charges warranting the
suspension or disbarment of members of the bar, or in
prosecutions brought and conducted before the supreme court for the discipline of such members;
4. The expenses incurred by the bar association
of the state of North Dakota in conducting investigations and prosecutions of proceedings instituted for the
purpose of protecting the public and the bar of North
Dakota against unauthorized practice by corporations,
limited liability companies, or persons not licensed to
practice law; and
5. The necessary expenses of conducting and
supplying the offices of the state board of law examiners.

N.D. Cent. Code § 27-12-02
Membership of state bar association. The membership of the state bar association of North Dakota
consists of every person:

50a
1. Who has secured an annual license to practice
law in this state from the state board of law examiners
in accordance with section 27-11-22; or
2. Who has an unrevoked certificate of admission
to the bar of this state and who has paid an annual
membership fee to the state bar association. The annual fee must be established by the state bar association at its annual meeting, by a majority vote of its
members in attendance at the meeting, not to exceed
eighty percent of the maximum fee for an annual license to practice law in this state as prescribed in section 27-11-22.

N.D. Cent. Code § 27-12-04
Moneys payable from state bar fund to state bar
association. The state bar association of North Dakota,
out of the state bar fund, must receive for operation of
the lawyer discipline system seventy-five dollars of
each license fee beginning January 1, 1999. Eighty percent of the remaining amount of the annual license
fees paid by licensed members must be paid to the
state bar association for the purpose of administering
and operating the association. These sums must be
paid quarterly to the association by the state board of
law examiners upon vouchers drawn in accordance
with section 54-44-12.

51a
U.S. CONST., amend. I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.

U.S. CONST., amend. XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

52a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
SOUTHWESTERN DIVISION
)
Civil No.
)
1:15-CV-00013
Plaintiff,
)
v.
)
Jack McDonald, President )
of the State Bar Association )
JOINT
)
STIPULATION OF
of North Dakota; Aubrey
PARTIAL CASE
Fiebelkorn-Zuger, Secretary )
)
and Treasurer of the State
RESOLUTION AND
Bar Association of North Da- ) BRIEFING SCHEDkota; Tony Weiler, Executive ) ULE REGARDING
)
DISPOSITIVE
Director of the State Bar
)
Association of North Dakota;
MOTIONS
and Penny Miller, Secretary- ) (Filed Nov. 20, 2015)
Treasurer of the State Board )
of Law Examiners, in their )
)
official capacities,
)
Defendants.
)
***
***
***
Arnold Fleck

COMES NOW Plaintiff, Arnold Fleck, and Defendants Jack McDonald, Aubrey Fiebelkorn-Zuger, Tony
Weiler (collectively “SBAND Defendants”), and Penny
Miller, who stipulate as follows:
1. On February 3, 2015, Plaintiff filed a Complaint for Declaratory and Injunctive Relief, alleging
three claims for relief against Defendants: (1) lack of
minimum safeguards required under Keller v. State
Bar of California, 496 U.S. 1 (1990); (2) violation of the

53a
right to affirmatively consent to non-chargeable expenditures; and (3) the unconstitutionality of a mandatory bar association. Doc. 1.
2. On February 3, 2015, Plaintiff filed a Motion
for Preliminary Injunction with respect to his first and
second claims for relief.
3. On May 14, 2015, this Court ordered the parties to conduct settlement discussions under the supervision of a Magistrate Judge.
4. On May 27, 2015, the parties conducted settlement discussions as ordered and agreed to negotiate a
resolution of the case. All deadlines in the case were
stayed.
5. Between August 7 and September 18, 2015,
the parties exchanged documents in an attempt to resolve the dispute.
6. On September 24, 2015, SBAND Defendants
submitted final drafts of the revised policies of the
State Bar Association of North Dakota to Plaintiff. A
copy of the revised policies is incorporated herein as
Exhibits 1-3.
7. SBAND Defendants agree to adopt the revised
policies reflected in Exhibits 1-3 and to adhere to them
until such time as the policies may hereinafter be revised further by the SBAND, consistent with applicable law.
8. Accordingly, Plaintiff and SBAND Defendants
agree that adoption of and adherence to the revised

54a
policies reflected in this stipulation will resolve fully
and completely the first claim for relief requested in
Plaintiff ’s Complaint, see Doc. 1 ¶¶ 71-76.
9. In light of SBAND Defendants’ agreement in
¶ 7, above, Plaintiff hereby withdraws his Motion for
Preliminary Injunction.
10. Although Plaintiff agrees that the policies
embodied in Exhibits 1-3 resolve his first claim, Plaintiff asserts that he lacks sufficient knowledge to endorse or dispute the accounting set forth in Exhibit 2
(Notice Concerning State Bar Dues Reduction and Mediation Process) or to state that it accurately reflects
all non-chargeable expenditures made by SBAND.
Plaintiff however agrees he does not intend to challenge and/or dispute the accounting set forth in Exhibit 2.
11. Plaintiff and SBAND have resolved plaintiffs
claim for attorneys’ fees and costs in this case and
agree that plaintiff ’s request for attorneys’ fees and
costs has been fully and finally resolved, including any
future attorneys’ fees and costs to be incurred by the
plaintiff.
12. Plaintiff and SBAND Defendants have conferred and agreed on a proposed schedule for dispositive motions in this case with respect to the two claims
which Plaintiff asserts remain outstanding: (1) violation of the alleged right to affirmatively consent to nonchargeable expenditures; and (2) the alleged unconstitutionality of a mandatory bar association.

55a
13. SBAND Defendants assert there are no outstanding issues remaining, as the above issues asserted by Plaintiff are already disposed of in
Defendants’ favor based on existing law.
14. SBAND Defendants also claim Plaintiff has
asserted constitutionality of North Dakota law claims
against the wrong party or parties.
15. Defendant Miller asserts that she is not the
proper party to address the issues identified in paragraph 12 or to defend the constitutionality of North
Dakota law.
16. Plaintiff ’s motion for summary judgment
shall be due on or before November 20, 2015.
17. Defendants’ cross-motion for summary judgment and opposition to Plaintiff ’s motion for summary
judgment (including any opposition under Federal
Rule of Civil Procedure 56(d)) shall be due on or before
December 23, 2015.
18. Plaintiff ’s reply in support of their motion for
summary judgment and opposition to SBAND Defendants’ cross-motion for summary judgment (including
any opposition under Federal Rule of Civil Procedure
56(d)) shall be due 45 days after the filing of Defendants’ cross-motion for summary judgment.
19. Defendants’ reply in support of their crossmotion for summary judgment shall be due 30 days
after the filing of Plaintiff ’s reply in support of his
motion for summary judgment and opposition to Defendants’ cross-motion for summary judgment.

56a
20. The parties respectfully request that the
Court adopt this stipulation and proposed schedule.
Dated this 20th day of November, 2015.
SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION AT
THE GOLDWATER INSTITUTE
By: /s/ Jared Blanchard
Jared Blanchard
(Ariz. Bar #: 031198)
James Manley
(Ariz Bar #: 031820)
500 E. Coronado Road
Phoenix, AZ 85004
Ph: 602-462-5000; Fax: 602-256-7045
litigation@goldwaterinstitute.org
Attorneys for Plaintiff,
Arnold Fleck
Dated this 20th day of November, 2015.
SMITH BAKKE PORSBORG
SCHWEIGERT & ARMSTRONG
By: /s/ Randall J. Bakke
Randall J. Bakke (#03898)
Bradley N. Wiederholt (#06354)
122 East Broadway Avenue
P.O. Box 460
Bismarck, ND 58502-0460
(701) 258-0630
rbakke@smithbakke.com
bwiederholt@smithbakke.com

57a
Attorneys for Defendants,
Jack McDonald, Aubrey
Fiebelkorn-Zuger, and Tony Weiler
Dated this 20th day of November, 2015.
STATE OF NORTH DAKOTA WAYNE
STENEHJEM
ATTORNEY GENERAL
By: /s/ Douglas A. Bahr
Douglas A. Bahr
Solicitor General
State Bar ID No. 04940
Office of Attorney General
500 North 9th Street
Bismarck, ND 58501-4509
Telephone (701) 328-3640
Facsimile (701) 329-4300
dbahrAnd.gov
Attorney for Defendant,
Penny Miller
[Certificate of Service Omitted]

58a
PLEASE SEE INSTRUCTIONS ON REVERSE SIDE

PLEASE RETAIN A COPY FOR YOUR RECORDS
04102

NORTH DAKOTA STATE BOARD OF LAW EXAMINERS
JUDICIAL WING 1ST FL
600 E. BOULEVARD AVE
BISMARCK, ND 58505-0530 • 701-328-4201
STATEMENT OF LICENSE FEES DUE
(Return complete statement with check. No credit cards accepted.)

Section 27-11-22, NDCC, provides every person engaged in the practice of law or who serves as a judge of a court of record shall secure an annual license ON OR BEFORE JANUARY 1 OF EACH CALENDAR YEAR.
ANNUAL LICENSE FEE FOR 2018 $380.00 – five or more years from the date of admission.
PLEASE NOTIFY THIS OFFICE OF ANY CHANGES IN THE ABOVE INFORMATION
STATE BAR ASSOCIATION OF NORTH DAKOTA
REQUIRED ANNUAL CERTIFICATE OF COMPLIANCE TO
CLERK OF THE SUPREME COURT
ANNUAL SBAND SECTION
ENROLLMENT FORM
I certify that I have read rule 1.15, N.D. Rules of Professional Conduct and that:
 Administrative & Government Lawyers – $10
 Real Property, Probate & Trust Law – $25
A. TRUST ACCOUNT
 Business & Corporations – $10
 Taxation – $10
I am in compliance with Rule 1.15. My trust account is:
 Criminal Defense – $10
 Women Lawyers – $10
Account Number _______________________________________
 Family Law – $25
 Elder Law – $10
Financial Institution ___________________________________
 Legal Economics – $10
 Indian Law – $10
OR
Subtotal $ __________
I am exempt from Rule 1.15 because:
ND BAR FOUNDATION
I do not actively practice law.
 Sustaining Member (Annual)
$ 25.00
 Donor ($500 total or $50 Annual)
$ 50.00
I am admitted in, or associated with a law firm located in another jurisdiction where a
 Patron ($1,000 total or $100 Annual)
$ 100.00
trust account is maintained.
 Silver Patron ($2,500 total or $250 Annual)
$ 250.00
I do not hold client funds because:

Gold
Patron
($5,000
total
or
$500
Annual)
$ 500.00
I am a full-time judge, corporate counsel, or government attorney.
 Platinum Patron ($10,00 total or $1,000 Annual)
$1,000.00
I never hold property of clients or third persons.
Other: Please explain
Pro Bono Fund
B. MALPRACTICE INSURANCE
 ______ Hours ($85/hour)
$ ________
I represent private clients
Subtotal $ ________
I am currently covered by professional liability insurance and intend to maintain such
OPTIONAL: Keller deduction relating to nonchargeable activities. Members
($ ________)
insurance during the next 12 months.
wanting to take this deduction may deduct $1.45 if paying $380; $1.33 if paying
I am NOT covered by professional liability insurance.
$350; and $1.22 if paying $325. (See Insert.)
Other: Please explain
I do not represent private clients.
SIGNATURE: _____________________________________________________
TOTAL SECTION AND FOUNDATION
TOTAL $ ________
LAW FIRM:
_____________________________________________________
FEES REMITTED
MAKE ALL CHECKS PAYABLE TO: STATE BOARD OF LAW EXAMINERS
600 E. BOULEVARD AVE, BISMARCK, ND 58505-0530

59a
INSTRUCTIONS FOR COMPLETING
LICENSE RENEWAL FORM
The following information MUST BE COMPLETED
on the Statement of License Fees/Certificate of Compliance.
1.

Verify your address, phone, fax, and e-mail
information is correct. Changes can be handwritten directly on the statement.

2.

Lower left portion of the statement – Mandatory:

3.



Answer section A regarding Trust Account Information



Answer section B regarding Malpractice Insurance



Sign the certificate and identify your law firm
name, if applicable.

Lower right portion of the statement – Optional:


If you choose to enroll in any section of the
State Bar Association, please send one check
or money order which includes your license
fee and the additional section fees.



If you choose the optional Keller deduction,
please deduct that amount from the total section and foundation fees to be remitted. See
enclosed insert explaining Keller deduction
policy.

60a
4.

Return the complete Statement (not just the top
half ) with your check or money order. The statement must accompany your check.

No credit card payments are accepted.
Please note: Licenses expire on December 31. You will
not be licensed for the following calendar year without
the completed license statement and fees on file in the
Board office on December 31.
Failure to properly complete and return the license
statement and provide the appropriate fees will result
in a delay of your licensure.
Thank you.

